Q@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tl efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-670

ARNOLD FLECK,
Petitioner,
v.
JOE WETCH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE 1889
INSTITUTE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4918 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ & Chk,
State of Nebraska . ,
My Commission Expires Nov 24, 2020 «

Notary Public Affiant

 

 

39207
